No.

______

IN THE

Supreme Court of the United States
ENZO LIFE SCIENCES, INC.,
v.

Petitioners,

ROCHE MOLECULAR SYSTEMS, INC., ROCHE
DIAGNOSTICS CORPORATION, ROCHE DIAGNOSTICS
OPERATIONS, INC., ROCHE NIMBLEGEN, INC., BECTON
DICKINSON AND COMPANY, AKA Becton Dickson and
Company, BECTON DICKINSON DIAGNOSTICS INC., AKA
Becton Dickson Diagnostics, GENEOHM SCIENCES
INC., ABBOTT LABORATORIES, ABBOTT MOLECULAR,
INC.,
Respondents.
APPLICATION TO THE HONORABLE CHIEF
JUSTICE JOHN G. ROBERTS, JR. FOR AN
EXTENSION OF TIME WITHIN WHICH TO
FILE A PETITION FOR A WRIT OF
CERTIORARI
Petitioner Enzo Life Sciences, Inc. hereby moves by its undersigned counsel,
pursuant to Rules 13(5) and 30 of the Rules of this Court, for an extension of time of
30 days, to and including Wednesday, February 26, 2020, for the filing of a petition
for certiorari to review the decision of the United States Court of Appeals for the
Federal Circuit dated June 20, 2019 (928 F.3d 1340, Attachment 1), on which panel
rehearing and rehearing en banc was denied on October 29, 2019 (Attachment 2). In
support of this application, counsel for petitioner hereby states as follows:

1. Unless extended, the time for filing a petition for a writ of certiorari will
expire January 27, 2020. This application is submitted to the Court more than 10
days prior to that deadline, pursuant to Rules 13(5) and 30(2).
2. The jurisdiction of this Court rests on 28 U.S.C. § 1254(1).
3. Undersigned counsel has been retained by petitioner to prepare and file a
petition for a writ of certiorari with this Court. Preparation of a petition that will
adequately present the issues for this Court’s consideration will require substantial
research, including review of decisions and rules of this Court and the Court of
Appeals for the Federal Circuit.
4. Undersigned counsel currently has imminent litigation commitments and
deadlines, including preparation of expert reports in a civil case before the United
States District Court for the District of Delaware, preparation of expert reports and
expert depositions in a civil case before the United States District Court for the
Central District of California, and preparation of expert reports in a civil case before
the United States District Court for the District of Utah. Undersigned counsel also
had significant litigation commitments in the time leading up to the present
deadline, including legal memoranda and hearings in November and December of
2019 in a civil case before the United States District Court for the Central District
of California, preparation of expert reports and legal memoranda in November and
December of 2019 and January of 2020 in a civil case before the United States
District Court for the District of Delaware, and a claim construction hearing on
January 14, 2020, in the United States District Court for the District of Utah.

5. An extension is warranted because this case presents fundamental and
complex issues of patent law concerning patent validity, including issues of
enablement under 35 U .S .C. § 112. The Federal Circuit's decision created intracircuit conflicts regarding whether a patent challenger must present proof of
inoperability within a genus or class to find the claimed art unpredictable, and
whether a patent need prove with certainty that the claimed invention works. The
questions presented in Enzo's petition will have significant impact on U.S . patent
law and uniformity among the lower courts in evaluating whether a patent is
sufficiently enabled. The requested 30-day extension will allow petitioner's counsel
to provide a thorough and complete petition to advise this Court of the issues.
6. Petitioner has not previously sought an extension of time from this Court.
For the foregoing reasons, petitioner hereby requests that an extension of time
of 30 days, to and including February 26, 2020, be granted within which petitioner
may file a petition for a writ of certiorari.
Dated: January 14, 2020

Respectfully submitted,

ilcox@desmaraisllp .com
Jennifer M. Przybylski (Bar No. 311242)
jprzybylski@desmaraisllp.com
DESMARAIS

LLP

230 Park Ave
New York, NY 10169
Phone : 212-351-3400
Fax: 212-351-3401
Peter C. Magic (Bar No . 311765)
pmagic@desmaraisllp .com

DESMARAIS LLP
101 California St
San Francisco CA 94111
Phone: 415-573-1900
Fax: 415-573-1901
cc: Counsel for Respondents

